No. 19-1224
IN THE
SUPREME COURT OF THE UNITED STATES

JEREMIAH F. MANNING,

Petitioner,
v.
LUCY J. KIM,

Respondent.

On Petition For A Writ of Certiorari
To The Supreme Court of California

SUPPLEMENTAL BRIEF

JEREMIAH F. MANNING

Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

QUESTIONS PRESENTED
I. The public record shows that Judge
Susan Greenberg of the California
Superior Court of San Mateo County
accepted campaign contributions from
Respondent's attorneys well in excess of
the statutory limit ($1500) that required
her disqualification and she declined to
recuse herself and failed to disclose this
to Petitioner for over a year thereby
depriving him of the exercise of his
peremptory challenge as provided to
him by California law, and then refused
to recuse herself upon motion, instead
striking Petitioner's disqualification
motion and later entering judgment on
child custody against Petitioner. The
question presented is whether Judge
Greenberg's refusal to recuse herself
and failure to timely and accurately
disclose the campaign contributions to
the Petitioner violated the Due Process
and Equal Protection Clauses of the
Fourteenth Amendment.

11

II. The record also shows that Judge
Greenberg accepted campaign
contributions from Respondent's
attorneys well in excess of the $100 that
under California law required Judge
Greenberg to timely and accurately
disclose them, and that Judge
Greenberg failed to disclose them for
over a year in contravention of said
statute while making ruling after ruling
against Petitioner, including rulings
involving the fundamental
Constitutional rights to an attorney and
cross-examination, and then made an
incomplete, inaccurate and misleading
disclosure after the child custody phase
of trial had been completed and
subsequent to her almost
contemporaneous recusal of herself for
the same reason in a similar matter also
involving child custody. The question
presented is whether Judge Greenberg's
failure to recuse herself where she had
accepted excessive campaign
contributions and failed to disclose them
as required by law, but did
contemporaneously recuse herself in a
similar matter where both parties were
represented by counsel, violated the
Fourteenth Amendment.

In

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
There are no additional parties to
this case other than those named in the
caption, and neither party is a nongovernmental corporation for which
disclosure is required as specified in
Rule 29.6.

iv
TABLE OF CONTENTS
Page
QUESTIONS
PRESENTED
PARTIES TO THE PROCEEDING
AND RULE 29.6
STATEMENT
lll
TABLE OF
CONTENTS

iv

TABLE OF
APPENDICES

vi

TABLE OF AUTHORITIES

vii

OPINION/REVIEW
BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS
INVOLVED
2
STATEMENT

3

SUMMARY OF THE
ARGUMENT

11

TABLE OF CONTENTS(continued)
Page
ARGUMENT

13

THE CALIFORNIA SUPREME
COURT'S REFUSAL TO ADDRESS
PETITIONER'S FEDERAL
CONSTITUTIONAL ARGUMENTS
CONFLICTS WITH THIS COURT'S
DECISIONS IN DAVIS AND
SINENENG-SMITH

19

AS IN RAMOS, THE FEDERAL
CONSTITUTIONAL ARGUMENTS
PRESENTED BY PETITIONER
RAISE FUNDAMENTAL
CONSTITUTIONAL ISSUES
THAT OUGHT TO RECEIVE
SUITABLE AND APPROPRIATE
APPELLATE REVIEW

24

CONCLUSION

29

vi
APPENDICES
Page

APPENDIX A: Opinion of the
Court of Appeals for the First
District of California

A2

APPENDIX B: Order Denying
Rehearing by the Court of Appeals for
the First District of
California
A25
APPENDIX C: Order of the
California Supreme Court
Denying Petition for
Review

A27

APPENDIX D: Judgment of Judge
Susan Greenberg Entered
September 16, 2016
A29
APPENDIX E: Petitioner's Motion
to Disqualify Judge Susan
Greenberg Dated March 25, 2016....A86
APPENDIX F: Petitioner's
Rehearing Petition to The
California Court of Appeals

A109

vii
TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW
Ake v. Oklahoma,
470 U.S. 68 (1986)

13, 14

Caperton v. A.T. Massey Coal Co.,
556 U.S. 868
(2009)

26

Coleman v. Thompson,
501 U.S. 722 (1991)

12

Davis v. United States,
589 U.S. (2020)........9,18, 19, 20, 22
Durley v. Mayo,
351 U.S. 277, 281 (1956)

21

Enterprise Irrigation
District v. Farmers Mutual
Canal Co., 243 U.S. 157 (1917)

14

Harris v. Reed,
489 U.S. 255 (1989)

11, 12

viii
TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW(Continued)
Johnson v. Mississippi,
403 U.S. 212 (1971)

25

Lynch v. New York ex rel. Pierson,
293 U.S. 52, 54-55 (1934)

21

Michigan v. Long, 463 U.S. 1032
(1983)
11,13, 21, 23
Matthews v. Eldridge, 424 U.S. 319
(1976)

25

Mistretta v. United States,
488 U.S. 361 (1989)

.25

Ramos v. Louisiana,
590 U.S.
(2020)

8, 17, 37

United States v. Sineneng-Smith,
590 U.S.
(2020)
9, 18, 19, 22, 23
Ward v. Village of Monroeville,
409 U.S. 47 (1972)

25

ix
TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW(Continued)

Williams v. Kaiser,
323 U.S. 471, 477 (1945)

21

Withrow v. Larkin, 421 U.S. 35
(1975)

25

Wood v. Chesborough,
228 U.S. 672, 676- 80 (1913)

21

CONSTITUTIONAL PROVISIONS
US. Const. amend. XIV, ยง 1

2

STATUTES
28 U.S.C. ยง 1257(a)
California Code of Civil Procedure

2

TABLE OF AUTHORITIES
AUTHORITY
Page(s)
STATUTES(Continued)
California Code of Civil Procedure
ยง170.1(a)(9)(A)

17

California Code of Civil Procedure
ยง170.1(a)(9)(C)

17

California Code of Civil Procedure
ยง 170.1(a)(9)(D)

.17

California Code of Civil Procedure
ยง170.6
17, 27
California Government Code
ยง 84211
Canon 3E of the California Code of
Judicial Ethics

17

.17

OTHER AUTHORITY
"Law Firms Predict Post-Pandemic
Divorce Rate Spike," May 11, 2020,
Humboldt Journal

5

SUPPLEMENTAL BRIEF

Petitioner Jeremiah F. Manning
respectfully submits this supplemental
brief in support of his petition for a writ
of certiorari to review the judgment of
the Supreme Court of California.
OPINION/REVIEW BELOW
The denial of Petitioner's Petition
for Review by the Supreme Court of
California was ordered on June 26,
2019. Pet. App. A27. The Opinion of
the California Court of Appeals for the
First District dated April 10, 2019 is
available in the Appendix. Pet. App.
A2. The Court of Appeals denied
Petitioner's Rehearing Petition on April
30, 2019. Pet. App. A25. Judge
Greenberg's September 16, 2016
Judgment is available in the Appendix.
Pet. App. A29. Petitioner includes his
motion to disqualify Judge Greenberg
and his Rehearing Petition to
demonstrate that the Constitutional
issues raised herein were raised below
and for the arguments and information
contained therein. Pet. App. A86 and
A109, respectively.

2
JURISDICTION
The Supreme Court of California
entered its denial of Petitioner's Petition
for Review on June 26, 2019. The
jurisdiction of this Court is invoked
under 28 U.S.C. ยง 1257(a).

CONSTITUTIONAL PROVISIONS
INVOLVED
The Fourteenth Amendment to
the U.S. Constitution provides, in
relevant part:
No State shall . . . deprive
any person of life, liberty,
or property, without due
process of law; nor deny to
any person within its
jurisdiction the equal
protection of the laws.
US. Const. amend. XIV, ยง 1.

3

STATEMENT OF THE CASE
Over the last three months,
during a period of unprecedented social
upheaval brought on by the CoVid-19
pandemic, this Court decided three
cases that addressed core elements of
our Anglo-American legal system,
including the right to an impartial
jury/factfinder, and the right to fair and
full appellate review that is guided by
the parties' framing and presentation of
issues. These decisions unquestionably
serve to reinforce and inspire confidence
in the fundamental fairness of, and
confidence in, our legal system.
Petitioner's case here at bar is a
similarly important case, and seeks to
strengthen and inspire confidence and
trust in the fundamental fairness of the
state trial and appellate courts in

4

California, a state with the 6th largest
economy in the world. This case
moreover has vitally important
implications for the administration of
justice and appellate review throughout
our 50 United States.
Petitioner seeks certiorari to
vindicate a core tenet of the AngloAmerican system of justice: the right to
an impartial judge. Petitioner's case
involves a family going through a
divorce, and concerns the right of
children and parents across the United
States to have their custody issues
decided by a neutral state court judge in
compliance with bedrock Constitutional
protections. With the current wave of
divorces anticipated due to the
pandemic, it is also more important
than ever that families have the

assurance that their state court judges
will be impartial and free from bias or
the appearance of conflict. See, e.g.
"Law Firms Predict Post-Pandemic
Divorce Rate Spike," May 11, 2020,
Humboldt Journal.
Since 1982, California's statutory
scheme for ensuring impartial judges
and remedying judicial conflicts has
afforded litigants the right to a judicial
peremptory challenge. This right must
be exercised soon after the Judge comes
on the case, but in no event after the
beginning of trial. Interwoven with this
peremptory challenge right is the more
recent requirement (also codified in law)
that all California Superior Court trial
judges disclose to the parties any
campaign contributions over $100 that
are made by counsel in a particular
matter.

6

But what if the trial judge does
not disclose campaign contributions by
opposing counsel, as she is required to
do, and instead continues presiding
through pre-trial practice and the trial
itself, thereby foreclosing a party's
peremptory challenge right?
This is exactly what happened in
the case at bar. Here, the clear law of
California required the judge, Hon.
Susan Greenberg, to recuse herself
because she accepted campaign
contributions from one party's
attorneys, and not the other's, in excess
of the state statutory amount that
triggered disqualification. Significant
for this Court's Fourteenth Amendment
review, Judge Greenberg did not advise
the Petitioner of the campaign
contributions given to her by opposing
counsel until after trial was well

7

underway, even though she was
required by law to do so. This both
denied Petitioner the right to an
impartial judge in the first instance,
and because of Judge Greenberg's
disclosure delay, precluded Petitioner
from exercising his peremptory
challenge and bringing a successful writ
or other appeal prior to trial so that he
could have this error reviewed. By
withholding this information until past
the commencement of trial, Judge
Greenberg foreclosed any successful
writ or other appeal because California
law does not permit litigants to utilize
their peremptory challenge right after
trial has begun. As a result of Judge
Greenberg's conduct, Petitioner was
deprived of his California state right to
peremptory challenge in violation of the

8

due process and equal protection clauses
of the Fourteenth Amendment.
To add insult to injury, neither
the California Supreme Court nor the
lower appellate court addressed these
Federal Constitutional deprivations,
even though Petitioner raised the issue
with precision in a timely manner and
gave each court ample opportunity to do
so. The appellate courts of California
simply refused to entertain Petitioner's
arguments about his Fourteenth
Amendment rights in any manner, and
clearly did not make a "plain statement"
regarding this issue that would
necessitate denial of this writ, if such a
statement rested on adequate and
independent state grounds (whether
substantive or procedural).
As this Court described in Ramos
v. Louisiana, 590 U.S.

(2020), the

9

right to an impartial jury is clearly
embedded in the United States
Constitution. And, as described further
in Petitioner's Petition, this Court has
time and time again held that all
parties are entitled to an impartial trial
judge/factfinder and it is a
Constitutional defect if this basic
requirement is not met. Pet. at 3-4.
Moreover, as this Court has
recently held in Davis v. United States,
589 U.S.

(2020), appellate courts

must not ignore, but instead must
address a Petitioner's arguments. This
principle is even more crucial where
fundamental due process and equal
protection rights are denied at the trial
level, such as in this case.
And most recently, in United
States v. Sineneng-Smith, 590 U.S.
(2020), this Court again reinforced the

10

principle that to be constitutionally=
valid, appellate review must abide by
fundamental due process rules.
Petitioner submits this
supplemental brief to share with the
Court the applicability of these recent
cases to the case at hand, and to
highlight the constitutional defects
present in this case. Granting this writ
will both enable this Court to reinforce
the Constitutional requirement for an
independent and impartial trial
judge/factfinder, and to make clear that
constitutionally-valid appellate review
is the law of the land and must be
conducted in accord with constitutional
principles, regardless of whether the
appellate review is conducted by a
Federal or state appellate court. It will
also give this Court an opportunity to
assure all those families and parties

11

who are going through divorce that they
should have confidence that their trial
court judges will follow the law in their
states by disclosing conflicts of interest
in a timely manner in accord with the
law, and by recusing themselves when
legally-required.
SUMMARY OF THE ARGUMENT
Petitioner's argument is that this
Court should grant certiorari in this
case because, like in Davis, Petitioner
has been denied appellate review of
issues he raised. Here, the lower
appellate court in California did not
address his Federal Constitutional
claims, and clearly did not make a
"plain statement" that its decision
rested on a state procedural bar to those
claims. See, e.g., Michigan v. Long, 463
U.S. 1032(1983); Harris v. Reed,

12

489 U.S. 255, 261 n.7 (1989) (collecting
cases); Coleman v. Thompson, 501 U.S.
722 (1991). Instead, as was the case in
Davis, the lower appellate court simply
elected to ignore Petitioner's Federal
Constitutional arguments. The
California Supreme Court then declined
to review this case, and thus the lower
appellate court's decision is the only
appellate decision in this case where we
can look for a "plain statement" that
Petitioner's Federal Constitutional
claims were expressly precluded by
California state law. There is no such
plain statement in the lower court's
opinion, and should this Court extend
Davis to this defective state court
appellate review, as Petititioner
requests, the result is clear: the

13

failure to review the denial of a state
peremptory challenge ought to be
remedied. For these reasons, Petitioner
respectfully requests that this Court
grant certiorari, and either hear this
case now or vacate the judgment as it
did in Davis, and remand to the
California Supreme Court, directing it
to consider and provide appropriate
appellate review of Petitioner's case and
his Federal Constitutional arguments.

ARGUMENT
In the years since Long, this
Court has required a "plain
statement" of adequate and independent
state grounds by the lower state court in
order to deny a writ of certiorari. Long,
463 U.S. 1032 (1983). In Ake v.
Oklahoma, 470 U.S. 68 (1986), this

14

Court recognized that a state ground
that rests on a Federal Constitutional
ruling cannot be independent. Ake, at
75, citing Enterprise Irrigation District
v. Farmers Mutual Canal Co., 243 U.S.
157, 243 U.S. 164 (1917)("But where the
non-Federal ground is so interwoven
with the other as not to be an
independent matter, or is not of
sufficient breadth to sustain the
judgment without any decision of the
other, our jurisdiction is plain").
The failure of Judge Greenberg to
timely disclose her acceptance of
campaign contributions in an amount
that required her recusal makes the
state law necessarily interwoven with
Federal Constitutional questions. By
failing to follow the clear law on
disclosure, Judge Greenberg was, de
jure, not impartial, and Petitioner was

15

therefore denied Federal Constitutional
protection in the first instance. And
this defect persisted, and merged with
other violations of law, dating from
when Judge Greenberg failed to disclose
the campaign contributions at the first
status conference in September 2014
through the trial over one year later in
October 2015. It pervaded every aspect
of the proceedings and resulted in the
denial of a state peremptory challenge
right. As a result, this defect is so
"interwoven" with state procedural law
that this violation cannot be
independent.
In the figure on the next page,
Petitioner displays graphically for the
Court the length of time that this
condition persisted during pre-trial
proceedings and trial.

16

3.u. el.CreenbeN's Fsaiiure tolAdose Campaiwi
Cg nriWtideisi Despite Nyitigic).0s.Qpitoottupiti0:000oiact.
Petitioner
of California State
. Peremptory
. Right
.. .
.
Judge Gmenberd
Atxtrats
'

Apri110, 2014

Campaign
Contributs โข
Over The

tztCmis.wherq

Maadmum from

Petitioner would.
have elserolsed his

Opposing

State perenraPtory

Cisumei

iight Igigt

Sept. S, ZOW

Greenberg had

Patties

fvflowerj the law

appear seven

and off-dosed the

Dec, 2014-Sept
. 2015

carnpaloti
coif

ri) timm
before 3uelge
Greenberg

But She Faits
Discits,', At

audgo
creeriberg

Any Time

Preskfas Over โข
Statement
Negotiations

Late Sept...201S โข ''"1:
Late Oct, 2a)

After over AYear.
audgeGre,ort..09

and 5 Trial

FIncily Offtyrs A

Days But Sno
to

Latef frincturate

Disclose

and rneosninfete
to Oct 2015

DISCIOS(10,
DePtivirig
Petitioner of His
Peremptory Right

17

As set forth in Petitioner's
Appendix F, by failing to disclose the
campaign contributions at the "earliest
reasonable opportunity", Judge
Greenberg violated several provisions of
California state law, including
California Code of Civil Procedure ยง
170.1, ยง 84211 of the California
Government Code, and Canon 3E of the
California Code of Judicial Ethics,
which is codified in the California Code
of Civil Procedure at ยง 170.1(a)(9)(D).
California Code of Civil Procedure at ยง
170.1(a)(9)(D). Pet. App. at 124-145.
These violations deprived Petitioner of
Federal Constitutional due process and
equal protection guarantees because as
Judge Greenberg she secreted and
withheld information crucial
information that was essential to the

18

exercise of Petitioner's state peremptory
challenge right. Starkly, only the
Petitioner was in the dark, as both the
Judge and opposing counsel knew that
campaign contributions had been made
and Petitioner's rights had been and
were being violated.
Both the lower appellate court
and the California Supreme Court
refused to address or discuss these or
any Federal Constitutional questions in
their decisions. Petitioner respectfully
submits that under Davis, Ramos and
Sineneng-Smith, this represents grave
constitutional error that requires
reversal and remand because of the
egregious nature of the constitutional
violations and failure of the California
appellate courts to consider Petitioner's
Federal Constitutional arguments.

19

THE CALIFORNIA
SUPREME COURT'S
REFUSAL TO
ADDRESS
PETITIONER'S
FEDERAL
CONSTITUTIONAL
ARGUMENTS
CONFLICTS WITH
THIS COURT'S
DECISIONS IN DAVIS
AND SINENENG-SMITH
In its Davis and Sineneng-Smith
decisions, this Court held that Federal
appellate courts cannot simply ignore
the arguments of a party that they find
inconvenient (Davis), or invent
arguments to suit the court's agenda
(Sineneng-Smith). Rather, an appellate
court must address the arguments
presented by the parties, and not
unduly limit or enlarge the scope of the
parties' arguments.

20

In Davis, this Court vacated a
Fifth Circuit judgment where that
Court "refused to entertain" the
Petitioner's arguments at all. Davis, at
2. Reinforcing a bedrock rule of
appellate jurisprudence, this Court
noted that every other Court of Appeals
in the country would consider
Petitioner's arguments, whether they
were of a factual or legal nature.
Id.(citing cases). In conclusion, this
Court made clear that the Fifth Circuit's
failure to conduct such an appellate
review was an "outlier practice."
While there is no question that
Davis concerned a criminal matter,
within a statutory framework, before a
Federal Circuit Court of Appeals,
Petitioner asks this Court to apply the
rule to this case.

21

Although a constitutional right to
appeal does not exist, this Court has
repeatedly made clear over the years
that it will grant certiorari where a
party argues during a state appeal that
Federal Constitutional issues are at
stake and the lower courts refuse or
decline to address the Federal issues.
Lynch v. New York ex rel. Pierson, 293
U.S. 52, 54-55 (1934); Williams v.
Kaiser, 323 U.S. 471, 477 (1945); Durley
v. Mayo, 351 U.S. 277, 281 (1956); Wood
v. Chesborough, 228 U.S. 672, 676-80
(1913). More recently, this Court has
required the lower state court to make a
"plain statement" of adequate and
independent state grounds. Long, at
1037-1042.

22

In the case at bar, the Supreme
Court of California and the lower
California appellate court have engaged
in an "outlier practice" by refusing to
even consider or address Petitioner's
Federal Constitutional arguments. As
this Court noted, in Davis there was "no
legal basis" for the Fifth Circuit to
decline to consider the Petitioner's
arguments. Davis, at 3. Such is also
the case at bar.
In Sineneng-Smith, this Court
vacated and remanded the Ninth
Circuit's appellate decision where that
Court, in contrast with the Fifth Circuit
in Davis, impermissibly enlarged (as
opposed to impermissibly limiting) its
appellate review. Again without legal
basis, the Ninth Circuit disregarded the
arguments of Petitioner Evelyn
Sineneng-Smith, and instead sought to

23

create new arguments for her by
appointing a committee of amicus curiae
to birth new issues. Sineneng-Smith, at
6-8. Since Ms. Sineneng-Smith had
originally raised issues relating to
Federal Constitutional rights, this
Court intervened to correct the error
and vacated and remanded the
judgment. Id. at 8.
While Sineneng-Smith, like
Davis, can also be distinguished as a
case arising in Federal court, in both
cases this Court reitereated the same
basic principle: where Federal issues
are argued, this Court will intervene.
Davis, at 1; Sineneng-Smith, at 9; See
also Long, at 1037.
Because he has raised Federal
issues and Constitional arguments as
set forth in detail in Appendix F,
Petitioner respectfully requests that

24
this Court also intervene in this case
and grant certiorari. Pet. App. A139A145.
II.

AS IN RAMOS, THE
CONSTITUTIONAL
ARGUMENTS
PRESENTED BY
PETITIONER RAISE
FUNDAMENTAL
CONSTITUTIONAL
ISSUES THAT OUGHT
TO RECEIVE
SUITABLE AND
APPROPRIATE
APPELLATE REVIEW

In Ramos, this Court has very
recently reinforced the principle that an
accused in a criminal trial must be tried
by an impartial jury, and after cogent
hermeneutical analysis, held that the
words "impartial jury" mean a

25

unanimous jury. Ramos, at 4-7. In
making its ruling, this Court made clear
that the right to an impartial,
unanimous jury had been made
manifest since the dawn of our
democracy, but it is only now after the
Ramos decision that it will be fully and
completely implemented in each of our
50 states.
Similarly, if one examines this
history of this Court's rulings on
impartial factfinders, the right to an
impartial judge has also been
emphasized by this Court for many,
many years, and the lack of an
impartial judge has been held to be a
prima facie Federal Constitutional
violation. Ward v. Village of
Monroeville, 409 U.S. 47 (1972);
Withrow v. Larkin, 421 U.S. 35, 47
(1975); Mistretta v. United States, 488

26

U.S. 361, 407 (1989); Caperton v. A.T.
Massey Coal Co., 556 U.S. 868 (2009).
Such a fundamental prima facie
Federal Constitutional violation exists
in the case at bar. As set forth in the
Petition and in this Supplemental Brief,
Judge Greenberg committed violations
of law that deprived Petitioner of an
impartial judge in the first instance.
Pet. at 1-33; Pet. Supplemental Brief at
17. Moreover, Judge Greenberg made
rulings on key fundamental issues,
including the constitutional right to
attorneys' fees and the constitutional
right to full and fair cross-examination
that always went against Petitioner.
Pet. at 1-33. While the lower appellate
California court never addressed the
denial of Petitioner's right to crossexamination, it sought to wash the
attorneys' fees violations away with a

27

repeated statement that Petitioner
should have appealed using a writ
procedure during trial. Pet. App. Al2A14.
However, the lower court refused
to entertain the Federal Constitutional
argument that Petitioner was denied his
state peremptory challenge right.
Petitoner did not have the information
required to appeal or otherwise
challenge, prior to the commencement of
trial, the prima facie violation of
impartiality that had existed since the
point Judge Greenberg came on the
case. This was critical because that
state peremptory challenge right is
extinguished early in the proceedings
and not after trial has commenced. Pet.
App. A134 (referring to California Code
of Civil Procedure ยง170.6(a)(2)).

28

Instead, the lower court limited
its decision to whether the striking of a
statement of disqualification was
appealable by writ. Pet. App. A15.
Because the prima facie violation
of impartiality present in this case is
such a core constitutional violation that
pervaded the proceedings, because it
denied Petitioner his state right to
peremptory challenge that is afforded
all other California litigants, and
because these constitutional right
violations were interwoven with the
denial of other bedrock constitutional
rights to attorneys' fees and crossexamination, Petitioner requests that
the Court grant certiorari to address
and remedy these denials of core
constitutional rights.

29

CONCLUSION
For the foregoing reasons, the
petition for writ of certiorari should be
granted, and the judgment vacated and
the matter remanded to the California
Supreme Court for further proceedings
and consideration of Petitioner's Federal
Constitutional arguments, or the case
accepted for review on the merits by this
Court.
Respectfully submitted,
JEREMIAH F. MANNING
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

May 14, 2020

